No. 20-853
IN THE

Supreme Court of the United States

ANDREI IANCU, UNDER THE SECRETARY OF COMMERCE
FOR INTELLECTUAL PRPERTY AND DIRECTOR, UNITED STATES
PATENT AND TRADEMARK OFFICE,
Petitioner,
v.
FALL LINE PATENTS, LLC, et al.,
Respondents,
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

JAMES GELSIN MARX CERTIFICATE OF WORD COUNT

Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON
& BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx

March 22, 2021

-1I, Edward M. Cannon, counsel for Respondent James Gelsin Marx, hereby
certify that, according to the word-count tool in Microsoft Word, the response in
support of the petition for a writ of certiorari consists of 462 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The response
therefore complies with Rule 33.1(g).
Respectfully submitted,
Edward M. Cannon, Principal Counsel
Philip M. Nelson
KNOBBE, MARTENS, OLSON & BEAR, LLP
2040 Main Street, 14th Floor
Irvine, CA 92614
(949) 760-0404
Attorneys for Respondent
James Gelsin Marx
34645030

